U.S. Department of Agriculture
 Office of Inspector General
       Midwest Region
         Audit Report



STATE AGENCIES’ OVERSIGHT OF THE
   CHILD AND ADULT CARE FOOD
           PROGRAM




               Report No.
               27002-14-Ch
               JANUARY 2002
                       EXECUTIVE SUMMARY
                   STATE AGENCIES’ OVERSIGHT OF THE
                  CHILD AND ADULT CARE FOOD PROGRAM

                            REPORT NO. 27002-14-Ch


                                    This report presents the results of our audit of
       RESULTS IN BRIEF             State Agencies’ Oversight of the Child and
                                    Adult Care Food Program (CACFP) in Ohio
                                    and Michigan. The objective of our audit was
          to determine whether Michigan and Ohio provided sufficient oversight of
          CACFP institutions to ensure they were in compliance with program
          requirements.

           The purpose of the CACFP is to ensure that nutritious meals are available
           to children and seniors with low incomes. Institutions enter into
           agreements with States to assume administrative and financial
           responsibility for CACFP operations at the centers and homes. The Food
           and Nutrition Service (FNS), which is responsible for the program at the
           Federal level, requires the States to provide oversight of the institutions.
           States exercise this oversight through audits, management reviews,
           licensing reviews, and claims reviews. In Ohio, we found deficiencies in
           all four types of reviews; in Michigan, our concerns centered on audits.

           Audits. Michigan and Ohio did not ensure that required audits were
           performed or that deficiencies found during audits were corrected. Of the
           735 participating for-profit and nonprofit institutions in Ohio, only 21 were
           known to require an audit and only 13 of these had been audited in
           FY1999. For the 50 audits of for-profit institutions performed in Michigan
           during 2000, none had undergone followup actions by the State to
           determine if deficiencies were corrected and if questioned costs needed to
           be collected.

           Neither State tracked Federal awards received by nonprofit institutions to
           determine which of those institutions should have submitted to an audit.
           Federal guidelines require audits of nonprofit institutions whose total
           Federal awards exceed $300,000; Ohio and Michigan did not require
           audits of nonprofit institutions until their CACFP funding itself reached
           $300,000. In Ohio, with 542 nonprofit institutions participating in the
           CACFP at a funding level of $37 million, only 21 were required to submit

USDA/OIG-A/27002-14-Ch                                                           Page i
           an audit.
           Federal guidelines also require States to establish compliance
           requirements for participating for-profit institutions that may include an
           audit policy.     However, neither State had established compliance
           requirements or audit policies. In addition, although Michigan’s contracted
           auditor performed 50 audits, none resulted in complete coverage because
           this auditor did not use the required audit guide.

           Administrative reviews. Although States are required to perform annual
           management reviews of one-third of their centers and sponsors, Ohio
           completed reviews of fewer than 20 percent of these institutions. The
           Food and Nutrition Service Regional Office (FNSRO) found one institution
           during the Ohio’s management evaluation in FY 2000 that had not been
           reviewed for 10 years.

           Licensing reviews. Ohio did not require institutions to show each year that
           day care facilities were properly licensed. The State agency did not have
           adequate controls to ensure that licenses were renewed timely; it did not
           have evidence in its files to confirm that half of the centers in our sample
           had current licenses. The license of one day care home provider had
           been expired for over 9 years.

           Claims reviews. Ohio did not use edit checks or other controls in its
           payment system for sponsors. There were no edits of the data on the
           claims and no second-party reviews of data entered into the system. We
           also found that review policies in Ohio led to inconsistent application of
           program regulations concerning meal components. Reviewers were
           required to disallow meals without milk but were given unwritten authority
           during first visits to provide technical assistance instead. Consequently,
           some reviewers disallowed milkless meals while others did not.

           As a result of the deficient State oversight, there was reduced assurance
           that the CACFP’s, as administered by the Michigan and Ohio State
           agencies, were being operated in accordance with program regulations
           and that funds received by the States in FY 2000, totaling over $97 million,
           were properly safeguarded.

                                      We are recommending that FNS require State
   KEY RECOMMENDATIONS                agencies to establish procedures to track
                                      Federal awards received by participating
                                      nonprofit institutions and require audits of
        those institutions that meet single audit requirements for organization-wide
        or program-specific audits. In addition, FNSRO should require each State
        agency to establish written compliance requirements for participating for-
        profit institutions.

USDA/OIG-A/27002-14-Ch                                                         Page ii
         We are also recommending that FNSRO ensure that State management
         reviews and licensing reviews are performed as required, and that State
         claims reviews incorporate some verification of accuracy.

                                    FNS responded on December 13, 2001, that it
      AGENCY RESPONSE               agreed with all of the recommendations and
                                    agreed to take corrective actions.

                                    Although FNS agreed with all of the
         OIG POSITION               recommendations, it generally did not give
                                    details of the corrective actions nor the
                                    timeframes for completion.




USDA/OIG-A/27002-14-Ch                                                   Page iii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS ......................................................................................ii
   AGENCY RESPONSE ..............................................................................................iii
   OIG POSITION..........................................................................................................iii

TABLE OF CONTENTS................................................................................................iv

INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES .............................................................................................................2
   SCOPE .......................................................................................................................2
   METHODOLOGY .......................................................................................................3

FINDINGS AND RECOMMENDATIONS .......................................................................5
   CHAPTER 1 ...............................................................................................................5
   STATE AGENCIES DID NOT ENSURE THAT AUDITS WERE COMPLETED FOR
   ALL INSTITUTIONS...................................................................................................5
   FINDING NO. 1 ..........................................................................................................5
   RECOMMENDATION NO. 1 ......................................................................................7
   RECOMMENDATION NO. 2 ......................................................................................8
   FINDING NO. 2 ..........................................................................................................8
   RECOMMENDATION NO. 3 ......................................................................................9
   FINDING NO. 3 ........................................................................................................10
   RECOMMENDATION NO. 4 ....................................................................................12
   RECOMMENDATION NO. 5 ....................................................................................12
   RECOMMENDATION NO. 6 ....................................................................................13
   CHAPTER 2 .............................................................................................................14
   OHIO’S ADMINISTRATIVE, LICENSING, AND CLAIMS REVIEWS WERE
   INADEQUATE ..........................................................................................................14

USDA/OIG-A/27002-14-Ch                                                                                                 Page iv
   FINDING NO. 4 ........................................................................................................14
   RECOMMENDATION NO. 7 ....................................................................................16
   FINDING NO. 5 ........................................................................................................17
   RECOMMENDATION NO. 8 ....................................................................................18
   RECOMMENDATION NO. 9 ....................................................................................19
   FINDING NO. 6 ........................................................................................................19
   RECOMMENDATION NO. 10 ..................................................................................20
   FINDING NO. 7 ........................................................................................................21
   RECOMMENDATION NO. 11 ..................................................................................22
   EXHIBIT A – FNS’ RESPONSE TO THE DRAFT REPORT ....................................23

ABBREVIATIONS........................................................................................................25




USDA/OIG-A/27002-14-Ch                                                                                            Page v
                             INTRODUCTION

                                          The U.S. Department of Agriculture’s (USDA)
        BACKGROUND                        Child and Adult Care Food Program (CACFP)
                                          was implemented in 1968 to provide nutritious
                                          meals to children of working parents in low
          income areas. In 1989, the program was expanded to include older adults
          as well as children. USDA’s Food and Nutrition Service (FNS) administers
          the CACFP through grants to States. The program is administered within
          most states by the State educational agency. In a few States it is
          administered by an alternate agency, such as the State health or social
          services department; and in Virginia, it is directly administered by the FNS
          Mid-Atlantic Regional Office. The FNS regional offices are responsible for
          authorizing State agencies to administer the CACFP through sponsoring
          institutions at the local level.

           The CACFP is authorized at section 17 of the National School Lunch Act,
           as amended (42 U.S.C. 1766). USDA issues program regulations under
           title 7, Code of Federal Regulations (CFR), part 226.

           The CACFP is a critical component of America’s nutrition assistance
           programs. On average, 2.6 million children per day receive nutritious
           meals at more than 200,000 licensed or approved childcare centers or
           family day care homes that participate in the program. Children in
           childcare facilities participating in CACFP receive meals which provide
           them with the nutrients they need for healthy growth and development.
           The cash payments funded to the States in FY 2000 were over
           $1.5 billion.

           Independent centers and sponsoring organizations (to be referred to here
           as institutions) enter into agreements with State agencies to assume
           administrative and financial responsibility for CACFP operations. FNS
           regional offices, through State agencies and sponsors, provide
           reimbursement to participating day care facilities for meals that meet
           specified nutritional requirements. Sponsoring organizations can be public
           or private, profit or nonprofit, and are solely responsible for administrating
           the program. Childcare providers that serve meals to children at their
           private residences must possess the applicable Federal, State, or local
           licenses and/or approvals to provide day care services. The sponsoring
           organization acts as a liaison between the State agency and the day care
           providers.


USDA/OIG-A/27002-14-Ch                                                           Page 1
           FNS regulations require State agencies to conduct annual on-site
           administrative reviews of one-third of all participating institutions. The
           State agency is responsible for the implementation and oversight of FNS
           program regulations to guard against fraud and abuse. These regulations
           require the State agencies, at a minimum to (1) conduct administrative
           reviews of sponsors and providers to ensure compliance with the
           program’s requirements; (2) review and approve sponsors’ budgets and
           management plans to ensure that only allowable and reasonable costs are
           claimed; (3) ensure that financial audits are performed according to Office
           of Management and Budget (OMB) circular A-133; (4) take corrective
           action on any deficiencies and internal control problems that are found to
           ensure that corrective action is completed and; (5) assure meal
           reimbursement claims are valid and accurate.

           The General Accounting Office (GAO) reported in November 1999 that
           State agencies cited various difficulties implementing additional controls
           for fraud and abuse. FNS shared the sense of urgency to make program
           improvements and developed a four-part plan consisting of training and
           guidance for State agencies, regulatory development, evaluation efforts,
           and possible legislative proposals for addressing the management
           deficiencies identified by GAO and the USDA Office of Inspector General
           (OIG). As part of that plan, FNS performed a comprehensive evaluation of
           all State agencies’ effectiveness in managing the CACFP in FY 2000.

           During FY 2000, Ohio received $50 million in CACFP funding, serving
           50 million meals with an average daily attendance of about
           81,000. Michigan received $47 million, serving 49 million meals with an
           average daily attendance of about 66,000.

                                        The objectives of this audit were to determine
         OBJECTIVES                     if the State agencies adequately exercised
                                        oversight of CACFP institutions. We reviewed
                                        the quality of the State agency’s management
          reviews, evaluated the training and technical assistance provided, and
          determined whether the State agencies had required applicable profit and
          nonprofit institutions to obtain audits, as required by title 7, CFR 226.8(a),
          and OMB circular A-133, respectively.

                                     Audit work was performed at the FNS Midwest
             SCOPE                   Regional Office (FNSRO), Chicago, Illinois;
                                     Ohio Department of Education, Columbus,
                                     Ohio; and the Michigan Department of
           Education, Lansing, Michigan. The audit period covered fiscal year
           (FY) 2000 and FY 2001, through March 31, 2001. We expanded our audit
           scope to include FY's 1997, 1998 and 1999 because the FY 2000 audit

USDA/OIG-A/27002-14-Ch                                                          Page 2
           deadline for the submission of audits required of participating institutions
           had not yet been reached and to include review of single audits conducted
           in Michigan and Ohio. The scope of the audit included 542 nonprofit and
           193 for-profit institutions in Ohio, and 354 nonprofit and 85 for-profit
           institutions in Michigan. We conducted the audit in accordance with
           generally accepted government auditing standards.

                                       To accomplish our objectives we:
        METHODOLOGY


              •   Obtained and reviewed CACFP policies and regulations.

              •   Reviewed mandates required by Public Law 106-224.

              •   Reviewed all FNSRO management evaluations for State agencies
                  in the Midwest region for FY 2000 and FY 2001 through March 31,
                  2001.

              •   Obtained FY 2000 CACFP funding totals for State agencies in the
                  Midwest Region from FNSRO.

              •   Interviewed the FNS Director of Child Nutrition Services – FNS
                  Headquarters, Washington, D.C.

              •   Interviewed pertinent personnel at FNSRO, Chicago, Illinois.

              •   Interviewed an OMB policy analyst.

              •   Interviewed the Chief Deputy Auditor of State for Ohio.

              •   Interviewed the Director of Child Nutrition Services at the Ohio and
                  Michigan State agencies and other pertinent personnel.

              •   Reviewed a judgment sample of State agency management
                  reviews of participating institutions for compliance with Federal
                  regulations.

              •   Reviewed a judgment sample of participating institutions for
                  childcare and food licenses to verify licensing requirements.

              •   Reviewed a judgment sample of participating for-profit and
                  nonprofit institutions in Ohio and Michigan to determine if they
                  obtained and submitted the required audit reports.


USDA/OIG-A/27002-14-Ch                                                           Page 3
             •   Reviewed the State of Ohio Single Audit reports for periods ending
                 June 30, 1999, and June 30, 2000, and the biennial Michigan
                 Department of Education Financial Audits for the periods ended
                 September 30, 1997, and September 30, 1999.




USDA/OIG-A/27002-14-Ch                                                      Page 4
             FINDINGS AND RECOMMENDATIONS


                     STATE AGENCIES DID NOT ENSURE THAT AUDITS
 CHAPTER 1
                       WERE COMPLETED FOR ALL INSTITUTIONS

            The CACFP has two types of institutions, the nonprofit institution and the
            for-profit institution. Nonprofit institutions that receive $300,000 or more
            annually in Federal funds are required to obtain a single audit every year.
            (In certain circumstances, audits may be performed biennially.) State
            agencies are required to track all Federal awards received by nonprofit
            institutions from all Federal sources in order to identify the institutions that
            receive $300,000 or more annually in Federal awards. State agencies are
            also required to ensure for-profit institutions comply with program rules
            and regulations by methods that can include pre-award audits, monitoring
            during the contract, and post-award audits. The State agencies also have
            the authority and responsibility for establishing audit policy for the for-profit
            institutions with regard to any Federal funds received from USDA. Neither
            the Michigan nor the Ohio State agency tracked the total amount of
            Federal awards received by nonprofit institutions because they maintained
            they had been unaware of the oversight requirement. In addition, the State
            agencies had not always ensured that audits were properly completed for
            those institutions they knew required them. As a result, there was
            reduced assurance that over $39 million in CACFP funds had been
            properly expended.

                                       State agencies were not aware of which
         FINDING NO. 1                 participating institutions were required to be
                                       audited each year in accordance with OMB
STATE AGENCIES DO NOT KNOW             circular A-133 requirements. State agencies
IF REQUIRED AUDITS HAVE BEEN           had not determined the amount of Federal
          PERFORMED                    awards received by institutions participating in
                                       the CACFP in order to determine if audits
                                       were required.       In addition, neither State
           agency determined which Federal agency was cognizant or held the
           oversight responsibility for institutions that received funding from more
           than one Federal agency. The State agencies’ only concern was with
           those institutions that received CACFP funding that exceeded the
           $300,000 threshold specified in OMB circular A-133 and would therefore
           require an audit. However, the State agencies had taken no steps to
           determine if funding from other Federal agencies would cause the

USDA/OIG-A/27002-14-Ch                                                               Page 5
           institutions to reach the $300,000 threshold, which would also require an
           audit to be performed. The State agencies maintained that they had not
           known they were responsible for tracking all Federal funding received by
           participating institutions. As a result, there was reduced assurance that
           participating institutions that received over $25.6 million in CACFP funding
           had been provided needed oversight through audits of their operations.

           OMB circular A-133, subpart B, subsection .200 (a), requires all non-
           Federal entities that expend $300,000 or more in Federal awards to have
           a single or program-specific audit conducted for that year. Subpart D,
           subsection .400 (d) (4), requires that pass-through entities, in the case of
           Michigan and Ohio, each State’s Department of Education, ensure that
           subrecipients that expend $300,000 or more in Federal awards during the
           subrecipient’s fiscal year meet A-133 audit requirements.

           FNSRO included the area of audits obtained by the State agencies in its
           FY 2000 management evaluation reviews of Michigan and Ohio. They
           reported no adverse findings in Michigan; however, FNSRO reported that
           the Ohio Department of Education’s Office of Grants Management had the
           responsibility for notifying institutions of their need to obtain organization-
           wide audits and was also responsible for tracking audits submitted to
           ensure all required audits were performed. But because of staff changes
           and other reasons, this information was not provided to the Division of
           Child Nutrition Services, which is responsible for the CACFP.

           Discussion with the Grants Management staff had lead FNSRO to believe
           that all Federal awards received by participating institutions were being
           tracked. However, during our audit, we confirmed that only funding that
           passes through the State Departments of Education are tracked. The
           State agencies do not track any other sources of Federal funding received
           by participating institutions.

           The State agencies tracked the receipt of audits from participating
           institutions that they knew were required to be audited because the
           institutions had received $300,000 or more in CACFP funding. However,
           neither State agency was aware of any other Federal awards participating
           institutions received because they had not requested that type of
           information from the institutions. The most recent application used by the
           Ohio State Agency requested the name of other awards received from
           Federal agencies but did not request the amounts of the awards.
           Therefore, the State agency still did not have enough information to
           determine if these institutions were required to have audits. Michigan had
           not requested any information regarding Federal awards and similarly had
           not known if any institutions were required to have audits.


USDA/OIG-A/27002-14-Ch                                                            Page 6
           In each State agency, we determined the total number of nonprofit
           institutions that had not been audited. The Ohio State agency had
           521 institutions funded at approximately $18.2 and the Michigan State
           agency had 277 nonprofit institutions funded at about $7.4 million.
           However, because both State agencies failed to acquire the necessary
           information to determine the total amounts of Federal awards received by
           each nonprofit institution, there was no assurance that all required single
           and program-specific audits had been performed.

           We discussed the issue with FNS and OMB. An FNS grants management
           official stated that the administering State agencies should track all
           Federal awards received by participating institutions in their States in
           order to know which institutions are required to submit an audit. OMB
           officials also confirmed the necessity to track all Federal funding. OMB
           stated that the State agencies should include all audit requirements in
           their agreements with participating institutions, in the form of audit
           contracts. Those contracts should list the sources and amounts of all
           Federal funds received and should document all policies and regulations
           regarding audits of both nonprofit and for-profit institutions. Additionally,
           OMB noted that the audit contracts should be renewed annually during the
           application renewal period for all institutions because Federal awards
           change frequently.

           We believe that State agencies should determine what funding
           participating institutions receive from all Federal sources to enable them
           to determine which institutions have exceeded the $300,000 threshold
           and would therefore be required to obtain an audit. This would not
           require the State agency to take any action if they were not the cognizant
           or oversight agency but would enable the State agency to identify the
           cognizant or oversight agency from which they could determine if an audit
           had been required.


    RECOMMENDATION NO. 1


           Require all State agencies in the Midwest Region to establish procedures
           to track Federal awards received by participating institutions and require
           audits of institutions meeting the requirements provided in OMB circular A-
           133.

           Agency Response

           FNS agreed with this recommendation and stated that it had instructed the
           State agencies in the Midwest Region to establish procedures to track

USDA/OIG-A/27002-14-Ch                                                          Page 7
            Federal awards received by participating institutions and to monitor
            institutional compliance with the audit requirements in OMB circular
            A-133.

            OIG Position

            We can reach management decision on this recommendation when FNS
            advises us of the timeframe within which State agencies will be required to
            establish procedures for tracking all Federal funds received by
            participating institutions and provides assurance that the requirements in
            OMB circular A-133 will be met.


    RECOMMENDATION NO. 2


            Require all State agencies in the Midwest Region to incorporate audit
            requirements in their contracts with each participating institution.

            Agency Response

            FNS agreed with this recommendation and instructed all State agencies in
            the Midwest Region to incorporate audit requirements into their contracts
            with participating institutions.

            OIG Position

            In order for us to reach management decision on this recommendation,
            FNS needs to advise us the date when State agencies will be required to
            incorporate audit requirements into their contracts with each participating
            institution.

                                      The Ohio State Agency had not ensured that
          FINDING NO. 2               required audits of nonprofit institutions were
                                      performed and submitted. This occurred
  OHIO INSTITUTIONS HAD NOT           because the State agency had not adequately
 ALWAYS SUBMITTED REQUIRED            tracked the list of nonprofit institutions
            AUDITS                    requiring a single audit. We noted that 21 of
                                      542 nonprofit institutions were required to
                                      comply with single audit requirements based
          on the receipt of CACFP funding that exceeded $300,000. However, 8 of
          the 21 had failed to comply with audit requirements and had not submitted
          audits to the State agency. As a result, there was reduced assurance that
          $5.7 million received by these 8 nonprofit institutions was properly
          expended.

USDA/OIG-A/27002-14-Ch                                                         Page 8
           OMB circular A-133 – subpart B requires that all non-Federal entities that
           expend $300,000 or more in a year in Federal awards have a single or
           program-specific audit conducted for that year.

           We reviewed CACFP funds awarded to each nonprofit institution to
           determine institutions that were required to submit audits in compliance
           with OMB circular A-133. Of 542 nonprofit institutions, 21 exceeded the
           established threshold, based on CACFP funding alone, for which an audit
           was required. Of these 21 nonprofit institutions that had received over
           $37.3 million in CACFP funding, 8 had received over $5.7 million, but had
           not submitted the required audits. In addition, the State agency had not
           followed up with the institutions to determine if an audit had been
           performed. Because audits for FY 2000 could still be submitted at the
           time of our audit, we limited our review to audits required for FY 1999.

           State agency officials stated they had assigned a new grants manager
           who was aware of audit issues and would follow up with all institutions that
           had not complied with audit requirements. In addition, State agency
           officials told us that a new claims reimbursement and reporting system for
           CACFP would be implemented at the end of 2001 and would permit the
           tracking of audits of participating institutions.

           However, until the new system has been implemented and is operating as
           intended, the State agency has reduced assurance that the nonprofit
           institutions have had required audits performed and that needed corrective
           actions have been taken to resolve deficiencies reported.


    RECOMMENDATION NO. 3


           Require the Ohio State agency to immediately determine if the required
           audits had been performed and to provide the necessary followup. If the
           audit period has passed, require the State agency to ensure audits are
           performed for the current period.

           Agency Response

           FNS agreed with this recommendation and has required the Ohio State
           agency to immediately determine if the required audits have been
           performed and to provide the necessary followup. If the audit period has
           passed, FNS will require the State agency to ensure that audits are
           performed for the current period.



USDA/OIG-A/27002-14-Ch                                                         Page 9
             OIG Position

             FNS needs to advise OIG of the timeframes for implementing the agreed-
             to corrective actions.

                                          Neither the Michigan nor the Ohio State
        FINDING NO. 3                     agencies had established written audit policies
                                          or other compliance requirements for their for-
   STATE AGENCIES NEED TO                 profit institutions. The Michigan State Agency
 IMPROVE THEIR OVERSIGHT OF               contracted with an auditor to perform program-
   FOR-PROFIT INSTITUTIONS                specific audits of for-profit institutions, but had
                                          not designated staff to follow up on audit
                                          findings and questioned costs to ensure that
          corrective actions were taken. In addition, the Michigan State agency had
          not required the auditor to use the FNS/OIG audit guide developed for
          program-specific audits. The Ohio State Agency had not performed any
          audits of for-profit institutions. As a consequence, the Ohio State agency
          had not ensured that audits or other compliance requirements were in
          place for institutions that received $8.1 million in program funds and the
          Michigan State agency had not ensured that audit coverage was
          complete, and had not properly followed up on audits of institutions that
          received $1.6 million in program funds.

             Title 7, CFR 3052.210 (e) and OMB circular A-133, subpart b, section .210
             (e), state that the pass-through entity (in this case the State agency) is
             responsible for establishing policies and procedures to ensure that for-
             profit institutions comply with program requirements. The for-profit
             institutions compliance requirements and compliance responsibilities
             should be documented. Methods to ensure compliance for Federal
             awards made to for-profit institutions may include pre-award audits,
             monitoring during the contract, and post-award audits.

             FNS policy memorandum 3, dated September 9, 1998, advised State
             agencies of this change in requirements (previous to this, title 7 CFR
             226.8 (a) had required for-profit institutions be audited at least once every
             2 years) and stated that the State agencies had the authority and
             responsibility for establishing audit policy for the for-profit institutions
             under their oversight with regard to any federal funds received from
             USDA. FNS encouraged State agencies to continue to require audits of
             for-profit institutions but to raise the threshold for the audits, previously
             established at $25,000, given the cost of the audits relative to the benefits.

             Funds are made available to each State agency, in amounts that are
             proportional to their program reimbursements, to fund a portion of
             organization-wide and program-specific audits of participating institutions.

USDA/OIG-A/27002-14-Ch                                                              Page 10
           State agencies can use any funds remaining after all required program
           specific audits have been performed to conduct administrative reviews of
           institutions. Although we did not review administrative costs during the
           audit, we noted that Ohio claimed costs of almost $400,000 for
           administrative audit expenses in FY 1999 while performing no program-
           specific audits and few organization-wide audits of participating
           institutions. Michigan, on the other hand, claimed administrative audit
           costs of only $2,000, while conducting many more audits.

           Neither State agency established written audit policies for their for-profit
           institutions. The Ohio State agency had established no audit policy, while
           the Michigan State agency had an unwritten audit policy that required
           virtually all for-profit institutions to be audited. Officials at each State
           agency stated that they were not aware they were required to establish a
           written audit policy.

           In 1999, the Ohio State agency contacted the Ohio State Auditor’s Office
           for approval to hire a contract auditor in February 2000. However, the
           Ohio Auditor of State rejected the auditor the State agency had proposed
           because the selected auditor had a conflict of interest. The Auditor of
           State offered to work with the State agency to establish an audit program;
           however, the State agency took no further action to ensure audits of for-
           profit sponsors were conducted.          No audits were performed in
           FY’s 1999 or 2000, or were scheduled to be performed in FY 2001.

           The Michigan State agency contracted with an auditor to audit for-profit
           institutions, but had not assigned any employees to follow up on the
           findings and questioned costs in the audit reports. Therefore, no one
           ensured corrective action was obtained for the findings in the reports on
           for-profit institutions that had received more than $1.6 million in CACFP
           funds in FY 2000. By May 2001, the auditor had submitted about 50 audit
           reports to the State agency. We reviewed 11 of these reports and
           determined that the auditor had identified audit findings or questioned
           costs in all 11. When we discussed the lack of followup with State agency
           officials, they realized their oversight and initiated corrective action.

           Michigan State agency officials told us they were not aware that the
           contracted auditor should have been required to use OIG audit guide
           27029-2 for these audits. Title 7,CFR 3052.235 (a), provides that when a
           program-specific guide is available, as was the case here, the auditor is to
           follow generally accepted government auditing standards (GAGAS) and
           the audit guide when performing the audits. Consequently, the State
           agency had required only that the auditor develop a work plan. This work
           plan included the review of records for food and meals served during the
           audited period, but did not include a review of current operations or

USDA/OIG-A/27002-14-Ch                                                        Page 11
           observation of current meal serving procedures, as the OIG audit guide
           required. Thus, the contracted coverage was not as comprehensive as it
           would have been had the auditor used the OIG guide.

           The Michigan State agency had not established clear documented criteria
           for audits of for-profit institutions. For example, a State agency official told
           us that there was an unwritten audit threshold of $200 for the for-profit
           institutions; however, other State agency officials disputed this threshold.
           A written audit policy would resolve this problem.


    RECOMMENDATION NO. 4


           Require the State agencies in the Midwest region to establish documented
           requirements to ensure compliance with program rules and regulations by
           for-profit institutions. If State agencies decide to perform audits of for-
           profit institutions, ensure the established audit policy is documented and
           requires use of OIG audit guide 27029-2 for        program-specific audits.

           Agency Response

           FNS agreed with the recommendation and has instructed the State
           agencies in the Midwest Region to establish requirements to ensure
           compliance with program rules and regulations by for-profit institutions.
           FNS further advised that if State agencies decided to perform audits of for-
           profit institutions, those State agencies should ensure that the established
           audit policy is documented and that it requires use of OIG audit guide
           27029-2 for program-specific audits.

           OIG Position

           FNS needs to advise OIG of the timeframes for implementing the agreed-
           to corrective actions.


    RECOMMENDATION NO. 5


           Evaluate the propriety of the Ohio State agency’s use of administrative
           audit funds claimed for reimbursement.


           Agency Response


USDA/OIG-A/27002-14-Ch                                                           Page 12
           FNS agreed with the recommendation. FNS stated that it would evaluate
           the propriety of Ohio’s use of administrative audit funds claimed for
           reimbursement during the next FNS financial review, which will be
           conducted no later than June 2002.

           OIG Position

           In order to reach a management decision on this recommendation, FNS
           needs to make it clear that it will evaluate the propriety of the almost
           $400,000 Ohio claimed for administrative audit expenses in
           FY 1999 during the financial review which it will conduct not later than
           June 2002.


    RECOMMENDATION NO. 6


           Require the Michigan State agency to ensure the proper followup of audit
           findings.

           Agency Response

           FNS agreed with this recommendation and stated that it had required the
           Michigan State agency to ensure proper followup on audit findings.

           OIG Position

           In order to reach a management decision on this recommendation, FNS
           needs to provide OIG information as to which prior audits the Michigan
           State agency will be required to follow up on, and the procedures for
           assuring that corrective actions are taken on all findings in future audit
           reports.




USDA/OIG-A/27002-14-Ch                                                      Page 13
                   OHIO’S ADMINISTRATIVE, LICENSING, AND CLAIMS
CHAPTER 2
                            REVIEWS WERE INADEQUATE

           The State agency did not complete administrative reviews of participating
           institutions on a timely basis. Although the requirement was to review one-
           third of participating institutions annually, the State had reviewed only
           19 percent of the institutions in FY 2000. In addition, the State agency had
           not (1) ensured institutions were properly licensed by local authorities to
           assure meals were served to children in safe and sanitary conditions,
           (2) developed edits and controls over reimbursement claims from family
           day care home sponsors to ensure payments were accurate, or
           (3) documented a revision to an existing State policy regarding meal
           disallowances. Finally, the State agency had not ensured the consistent
           application of the revised policy. As a result, the State agency could not
           ensure institutions were operating the CACFP properly and were entitled to
           the program payments they had received.

                                        In FY 2000, the State agency had not
        FINDING NO. 4                   completed administrative reviews of one-third
                                        of all participating institutions. We noted that
   OHIO DOES NOT CONDUCT                the State agency completed reviews of only
  MANAGEMENT REVIEWS IN A               19 percent of the institutions for FY 2000.
       TIMELY MANNER                    FNSRO also noted this deficiency in its
                                        FY 2000 management evaluation of the State
                                        agency and the two most recent single audit
          reports from the Ohio Auditor of State similarly reported that the State
          agency had failed to conduct the required number of administrative
          reviews of participating institutions. The State agency attributed its failure
          to a lack of staff to complete the necessary reviews. The importance of
          the State agency timely reviewing participating institutions was even
          greater because, as discussed in the findings in Chapter 1 of this report,
          the State had not ensured required audits of the participating institutions
          were performed. As a result, the State agency had not met its oversight
          responsibilities and there was reduced assurance that institutions were
          operating the program efficiently and effectively.

            Title 7, CFR 226.6 (l), requires State agencies to monitor the progress of
            institutions toward achieving program goals and requires that they review
            33.3 percent of all their institutions annually. State agencies are also to
            ensure each institution is monitored on a specified schedule based on the
            type of organization and the number of facilities it sponsors. For example,
            State agencies are to review independent centers, sponsoring
            organizations of centers, and sponsoring organizations of day care homes
            with 1 to 200 homes, every 4 years.

USDA/OIG-A/27002-14-Ch                                                         Page 14
           The State agency provided us a list of 144 institutions, representing only
           19 percent of the State’s 764 participating institutions, they claimed had
           been reviewed in FY 2000. We also reviewed a judgment sample of 75 of
           the 764 institutions to assist in evaluating the State’s schedule of reviews.
           We noted that 22 of the 75 institutions had not been visited within the
           4-year timeframe required and 2 additional institutions had not been
           visited in 7 years. The Director of Child Nutrition Services at the State
           agency informed us they did not have sufficient personnel to perform
           administrative reviews of 33.3 percent of the participating institutions each
           year. The director also stated that the State’s personnel office had placed
           a ceiling on staff. However, it is unclear how this would impact staff
           assigned to the Federally funded CACFP. The State agency had not
           taken any action to reassign present staff.

           We also questioned the validity of the statistics provided by the State
           agency regarding the number of institutions reviewed in FY 2000. We
           could not confirm the State agency’s claim that reviews had been
           performed at 144 institutions. We examined 15 of the administrative
           reviews that were reportedly accomplished but found that two institutions
           were inactive in the CACFP in FY 2000 and one institution’s review was
           actually completed in FY 1998. Therefore, the number of reviews
           completed was misreported for FY 2000. The Director stated that the files
           had not been maintained because of the loss of key personnel.

           The management evaluation conducted by FNSRO in FY 2000 had
           reported the same deficiency with respect to completing the required
           number of administrative reviews. FNSRO reported finding one institution
           that had not been reviewed for 10 years. The State agency’s response to
           the deficiency noted by FNSRO was that two additional employees had
           been hired. The State agency had also revised its FY 2001 State
           administrative expense plan to confirm that there were sufficient
           employees to conduct the administrative reviews required each year to
           meet the 33.3 percent requirement specified in the regulations. When we
           asked the State agency why the review requirements had still not been
           met, the Director of Child Nutrition Services said that the two employees
           referred to had been employed as contract employees, however, only one
           was actually converted to a full-time CACFP position. The remaining
           contract employee was not converted to a full-time position and was being
           used to conduct pre-approval site visits of institutions seeking CACFP
           participation. According to the Director, the State agency really did not
           gain additional employees.

           The two most recent State Single Audits, performed by the Ohio Auditor of
           State for the periods ending June 30, 1999, and June 30, 2000, had each
           reported that sufficient administrative reviews had not been performed,

USDA/OIG-A/27002-14-Ch                                                         Page 15
           reporting that only 17.5 percent and 14 percent, respectively, had been
           completed. The State Auditor had recommended in each report that the
           State agency revise its review schedule to provide for a sufficient number
           of reviews in order to meet regulatory requirements and if necessary
           “…reassign on-site reviews to program consultants to help ensure that an
           appropriate number of reviews will be completed.”

           The State agency had not taken effective action to correct its failure to
           review participating institutions timely. The State agency continued to
           blame its failure to meet review requirements on lack of staff but had not
           taken action to reassign present staff or shift caseload between staff
           performing the reviews. As a result, the State agency cannot provide
           assurance that program funds are being used effectively and efficiently for
           program purposes.


    RECOMMENDATION NO. 7


           Require the Ohio State agency to ensure that reviews of participating
           institutions are performed on a timely basis, such as reporting on a
           quarterly basis to FNS, the number of reviews completed. If additional
           staff cannot be provided, consideration should be given to reassigning
           present staff.

           Agency Response

           FNS agreed with the recommendation and stated that it had instructed the
           Ohio State agency to ensure that reviews of participating institutions are
           performed on a timely basis.

           OIG Position

           This is a longstanding problem. This finding has previously been reported
           by FNSRO in its administrative review and in two reports prepared by the
           Ohio Auditor of State. However, the problem persists even though the
           Ohio State agency had previously agreed to comply with the review
           requirements. FNS needs to advise OIG of the actions it plans to take,
           and timeframes, to require that the State agency complies with the review
           requirements, and how FNS will assure that corrective actions have been
           taken.




USDA/OIG-A/27002-14-Ch                                                       Page 16
                                       The Ohio State agency did not have controls
        FINDING NO. 5                  to ensure participating institutions had
                                       currently approved licenses. This occurred
    REVIEWS OF LICENSING               because licenses of institutions were
   REQUIREMENTS WERE NOT               examined at a specific time each year, without
         ADEQUATE                      consideration that licenses expired at different
                                       times throughout the year, and because the
                                       State agency had not always required
          institutions to provide documentation of current licenses. As a result, the
          State agency reimbursed meal claims to institutions that may not have
          been eligible and there was reduced assurance the participating
          institutions were providing safe and sanitary conditions.

            Title 7, CFR 226.6 (d), provides that each State agency is to establish
            procedures to review information submitted by institutions annually to
            ensure that all institutions are licensed or approved. Institutions are to
            submit documentation to the State agency that the facilities under their
            jurisdiction are in compliance with licensing/approval requirements.
            Independent centers are to submit documentation on their own behalf.
            Institutions that allow licenses/approvals to lapse or expire are not eligible
            for the CACFP.

            The State agency had not ensured participating institutions provided
            documentation that they were in compliance with licensing/approval
            requirements. Our review of 20 institutions disclosed that 10 did not have
            a current childcare and/or food service license on file at the time of our
            review. Of these, 6 involved childcare centers that did not have current
            licenses and 4 involved family day care home sponsors that did not
            provide current licenses for 97 providers under their supervision. The
            license for one provider had been lapsed for 113 months. Because the
            State agency did not always require documentation of current licenses to
            be submitted, the State was not always aware that licenses had lapsed
            and had not requested that overpayments be returned or withheld current
            program payments, as required by program regulations.

            The State agency’s Director of Child Nutrition Services stated that the
            Federal requirements state that licensing reviews must be conducted
            annually and she believed that they were in compliance because they
            reviewed licenses each year during the application renewal period that is
            conducted in each October. We inquired how the State agency ensured
            that licenses had not expired during the year and that therefore the State
            was funding institutions not eligible to participate in the program. The
            Director stated that licensing authorities backdate expired licenses to the
            expiration date; thus licenses really never expire. The Director also said


USDA/OIG-A/27002-14-Ch                                                           Page 17
           that licenses are maintained at institutions and so would be reviewed
           during management reviews.

           However, because the State agency had not performed timely reviews of
           participating institutions (as discussed in Finding No. 5), it is even more
           critical that documentation of current licenses be maintained at the State
           agency and that a timely review of each institution’s licensing
           requirements be made.          The backdating of licenses by licensing
           authorities has no bearing on the issue being discussed here. The
           backdating of licenses does not change the fact that an institution or day
           care provider had not been inspected timely. There is a significant risk of
           adverse publicity to the program if children were harmed at institutions
           funded by the CACFP, but which did not have proper licenses and
           approvals. Further, the regulations require each institution to be reviewed
           once each year, on an individual basis. This would not be difficult if the
           State agency required institutions to provide documentation that they were
           in compliance with licensing/approval requirements. Without the timely
           submission of documentation, there is also no guarantee that the licensing
           authorities would find conditions that would warrant a license renewal;
           therefore, the institution would be ineligible for program payments.


    RECOMMENDATION NO. 8


           Require the Ohio State agency to establish a system whereby they are
           assured, on a timely basis, that institutions have current licenses in place
           and that supporting documentation is on hand at the State agency.

           Agency Response

           FNS agreed with this recommendation and instructed the Ohio State
           agency to establish a system whereby they are assured, on a timely basis,
           that institutions have current licenses in place and that supporting
           documentation is on hand at the State agency.

           OIG Position

           FNS’ proposed corrective action is a restatement of what is already
           required and the regulations that the State agency is currently ignoring.
           FNS needs to take more forceful action with the State agency and advise
           OIG of those actions and the timeframe for implementation so as to
           assure that no CACFP sponsor is operating without proper licenses.



USDA/OIG-A/27002-14-Ch                                                        Page 18
    RECOMMENDATION NO. 9


            Instruct the Ohio State agency that they cannot approve participation by
            institutions for periods when licenses had lapsed but were subsequently
            retroactively approved by the licensing authority.

            Agency Response

            FNS agreed with the recommendation and stated that it had instructed the
            Ohio State agency that it cannot approve participation by institutions for
            periods when licenses lapsed but were subsequently retroactively
            approved by the licensing authority.

            OIG Position

            Before we can reach a management decision on this recommendation,
            FNS must advise us of the date it issued instructions to the Ohio State
            agency and must provide additional information on how it will assure that
            the corrective actions have taken place.

                                      The State agency had not incorporated edit
          FINDING NO. 6               checks or other controls into its payment
                                      system for family day care home sponsors’
NO EDIT CHECKS ARE INCLUDED           claims for reimbursement. The State agency
 IN OHIO’S FAMILY DAY CARE            maintained the same system of claims review
   HOME PAYMENT SYSTEM                that the State Auditor had taken exception to
                                      in the State’s Single Audit for the period ended
                                      June 30, 2000. As a result, there were still no
          established edit checks or other controls of payments to family day care
          home sponsors.       Therefore, the State agency could not provide
          satisfactory assurance that payments were correct.

            Title 7, CFR 226.7(m), requires the State agency to establish a financial
            management system in accordance with title 7 CFR, part 3015, and FNS
            guidance, to identify allowable program costs. Part 3015.61(c) of the
            uniform federal assistance regulations provides that recipients and
            subrecipients should establish effective control and accountability for all
            USDA grant or subgrant funds.

            The payment system for reimbursement claims from child care centers
            included edit checks and other controls during the scanning of the claims
            into the payment system; however, the State agency had not established
            similar controls for reimbursement claims from family day care home

USDA/OIG-A/27002-14-Ch                                                        Page 19
           sponsors. There were no edits of the data on the claims and no second
           party or supervisory review of claims data that was manually entered into
           the payment system, to ensure that it was accurate and that the correct
           sponsor was paid. Neither the childcare nor family day care home
           payment systems included edits or controls to identify block-type
           claiming, the claiming of all children for all serving days and for all meals.

           The State Auditor reported a similar condition in the Single Audit for the
           period ending June 30, 1999, for the Summer Food Service Program
           payments and family day care home reimbursements for the CACFP. The
           State Auditor recommended that the State agency develop a process for
           approving and reviewing reimbursements to lessen the risk for error and
           help determine that the payments were accurate, allowable, and
           conformed to program regulations. However, the State agency had not
           initiated any action to establish internal controls.

           When we discussed this with the State agency, the Director of Child
           Nutrition Services stated that Ohio was presently installing a new claims
           reimbursement and reporting system (CRRS) that would incorporate edit
           checks for the payment system for family day care home sponsor claims
           for reimbursement. She stated that the CRRS is supposed to be in
           operation by the end of FY 2001. However, there is no assurance that the
           system will be in operation and properly functioning at that time. Until it is,
           there is no assurance that payments to family day care home sponsors
           would be issued to only eligible institutions and that the amounts paid are
           accurate and calculated in accordance with program requirements.


   RECOMMENDATION NO. 10


           Require the Ohio State agency to develop a process for approving and
           reviewing reimbursement claims from family day care home sponsors to
           lessen the risk for error and to assist in determining that payments are
           accurate and allowable, and in conformity with applicable laws and
           regulations governing the CACFP.

           Agency Response

           FNS agreed with this recommendation and stated that it had asked the
           Ohio State agency to verify that its new payment system includes the
           necessary edits and is now operating.




USDA/OIG-A/27002-14-Ch                                                           Page 20
             OIG Position

             According to the Director of Child Nutrition Services in Ohio, the new
             payment system was supposed to be in operation by the end of FY 2001.
             We have no evidence that the new system has been implemented. FNS
             needs to advise OIG of the actions (and timeframes) it plans to take if the
             new system has not been implemented, to assure that payments to family
             day care home sponsors will be issued to only eligible institutions and that
             the amounts paid are accurate and calculated in accordance with program
             requirements. If the new system has been implemented, FNS needs to
             advise OIG of the date of implementation and what assurance it has
             received that the necessary edits were included.

                                        The State agency established a policy that
          FINDING NO. 7                 required any meals lacking the milk
                                        component to be disallowed on the initial visit.
  OHIO’S PROCESS FOR MEAL               However, the State agency made an
  DISALLOWANCE RELATED TO               undocumented revision to this policy that
      MILK SHORTAGES IS                 allowed reviewers to offer technical assistance
         INCONSISTENT                   on the initial visit despite any milk shortages
                                        found. In addition to the revised policy not
                                        being documented, no guidance was provided
            to reviewers regarding circumstances when to apply technical assistance
            and when to disallow meal claims that lacked the required milk
            component. Recent reviews conducted by the State agency disclosed
            individual reviewers were handling milk shortages in different ways. As a
            result, there was little consistency applied to the oversight of childcare
            centers regarding the required milk component on initial visits and FNS
            had no opportunity to evaluate the State agency’s actions because the
            policies followed by reviewers were not always documented.

             Title 7, CFR 226.20, provides that each breakfast, lunch, and supper
             include fluid milk as a component. However, CFR 226.14 (b), states that
             the State agency has the authority to not disallow payments or collect
             overpayments, when in their opinion, another action will have a corrective
             effect. In addition, CFR 226.14 (c) states that FNS may assert a claim
             against the State agency’s action in paying an institution or failing to
             collect an overpayment if it does not concur with the State agency’s
             action.

             Ohio Policy 28 requires that all meal/snacks found with milk shortages to
             be disallowed, even on the initial visit.

             Our review of 15 management reviews disclosed that 1 institution was
             disallowed meal claims for milk shortages in the amount of $1,976 while

USDA/OIG-A/27002-14-Ch                                                          Page 21
           2 other institutions were offered technical assistance, during the initial
           management reviews. We discussed the inconsistency of the State’s
           policy with the Director of Child Nutrition Services in Ohio who stated that
           she felt the State’s written policy was too strict for a new CACFP
           institution. Therefore, she allowed the less penal action of offering
           technical assistance to the institutions on the initial management review
           rather than to disallow meals that did not meet milk requirements. When
           we asked to review this revision to the State’s written policy, the Director
           told us that the revision was never documented. In addition, the State had
           established no guidelines for those performing the reviews to follow in
           applying the revised policy.

           Ohio has the authority to revise its policies and procedures; however, all
           revisions and changes to State policy should be documented to ensure
           that FNS has the opportunity to evaluate the revisions and to ensure State
           staff apply policies on a consistent basis. Ohio’s failure to document
           policy changes affecting how milk shortages were to be treated on initial
           management reviews resulted in institutions being treated inconsistently.


   RECOMMENDATION NO. 11


           Require the Ohio State agency to document any policy changes and to
           ensure they are consistently applied to all participating institutions.

           Agency Response

           FNS agreed with this recommendation and instructed the Ohio State
           agency to document any policy changes and to ensure that the policy
           changes are consistently applied to all participating institutions.

           OIG Position

           We can reach a management decision on this recommendation when FNS
           advises us of the date it issued the instructions to the Ohio State agency
           to implement the changes.




USDA/OIG-A/27002-14-Ch                                                        Page 22
EXHIBIT A – FNS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/27002-14-Ch                          Page 23
USDA/OIG-A/27002-14-Ch   Page 24
                         ABBREVIATIONS


CACFP        Child and Adult Care Food Program
CFR          Code of Federal Regulations
CRRS         Claims Reimbursement and Reporting System
FNS          Food and Nutrition Service
FNSRO        Food and Nutrition Service Regional Office
FY           Fiscal Year
GAO          General Accounting Office
OIG          Office of Inspector General
OMB          Office of Management and Budget
USDA         United States Department of Agriculture




USDA/OIG-A/27002-14-Ch                                    Page 25
